U.S. Department of                       The Inspector General   Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation




April 4, 2011

The Honorable John D. Rockefeller IV
Chairman, Committee on Commerce, Science,
 and Transportation
United States Senate
Washington, DC 20510

The Honorable Mark L. Pryor
Chairman, Subcommittee on Consumer Protection,
 Product Safety, and Insurance
United States Senate
Washington, DC 20510

Dear Chairmen Rockefeller and Pryor:

Thank you for your letter of February 23, 2010, in which you requested that we
conduct a review of former National Highway Traffic Safety Administration
(NHTSA) officials employed or under contract with automakers. Since NHTSA
oversees this industry, you asked that we determine whether these individuals are in a
position to exert undue influence on NHTSA’s safety defect investigations.

To address your request, we identified 63 employees who have either left NHTSA for
employment in the auto industry or left the auto industry for employment with
NHTSA since 1984 (see enclosure 1). We also reviewed 65 safety defect
investigation cases involving, or potentially involving, these 63 employees and
interviewed selected staff from those cases. Additionally, we assessed NHTSA’s
ethics program by reviewing NHTSA’s employee ethics training and financial
disclosures from current employees who previously worked for automakers. Finally,
we determined whether former employees received counseling on post-employment
restrictions (see enclosure 2 for complete details on our methodology).

As you requested, our office is also reviewing industry-wide complaints of sudden
unintended acceleration in vehicles with electronic throttle and braking control
systems and examining how NHTSA’s Office of Defects Investigations (ODI)
investigates these complaints. We will report on these efforts later this year.



CC-2010-034
                                                                                                                            2

Overall, we found no evidence suggesting undue influence or pressure on NHTSA’s
employees conducting safety defect investigations, and NHTSA had adequate controls
in place to ensure employees’ compliance with ethics requirements. Additionally,
NHTSA officials complied with U.S. Office of Government Ethics (OGE) rules for
employee training, financial disclosure reviews, and “cooling-off” periods for current
employees who previously worked for automakers.              NHTSA also provided
post-employment counseling to employees who left the Agency to work in the auto
industry. Finally, NHTSA’s ethics policies and procedures on employee training,
financial disclosure, and pre- and post-employment restrictions were similar to those
for other Department of Transportation (DOT) Operating Administrations with safety
oversight and enforcement programs. 1

We briefed your staff on our findings on January 19, 2011. The detailed results of our
review are discussed below.

We Found No Evidence Suggesting Undue Pressure or Influence on ODI
Staff Decisions
Our review of six 2 current ODI employees who joined NHTSA from the auto
industry, who had also worked on cases involving their former employers, 3 showed
no evidence of undue pressure or influence on these staff. Specifically, we reviewed
all 19 investigation cases for these 6 employees and examined all documentation
available in the ODI database, Artemis, 4 as well as investigators’ records. We found
no evidence that the former employers influenced the ODI employees in deciding
whether to upgrade or close the cases.

Further, either the automakers or NHTSA took action in disposing of many of those
cases, and we found no statistical differences in the way cases were disposed. 5
Specifically, of the 19 cases we reviewed:

    • 10 ended in recalls or with the manufacturers taking some form of action, such as
      conducting customer service campaigns or issuing technical service bulletins;
    • 2 were upgraded for further review before being closed;



1
    There are four other DOT Operating Administrations with safety oversight and enforcement programs: Federal Aviation
    Administration (FAA), Federal Motor Carrier Safety Administration, Federal Railroad Administration, and Pipeline and
    Hazardous Materials Safety Administration. NHTSA's ethics policies and procedures were similar to those of these
    Operating Administrations with the exception of FAA, which operates under more stringent policies.
2
    In the last 11 years, of the 23 employees who joined NHTSA from the auto industry, 15 are assigned to the Office of
    Defects Investigation (ODI) and 8 are assigned to the Office of Vehicle Safety Compliance. Only six employees had
    worked on cases involving their former employer at the time of our review.
3
    Auto manufacturers include Chrysler, Ford, Honda, and Kia.
4
    The Advanced Retrieval of Tire, Equipment, and Motor Vehicle Information System, or Artemis, is ODI's primary
    database for storing data used to identify and address potential safety defects.
5
    The proportion of disposed cases is consistent with the results of a broader statistical sample we conducted as part of our
    other ongoing NHTSA audit effort. That is, we found no statistically significant differences in the way investigators
    disposed of cases.

CC-2010-034
                                                                                                            3

    • 5 were closed based on reasonable documentation, such as field investigations of
      vehicles involved, low vehicle failure rates, or no reported failures in the
      12 months before NHTSA closed the investigations; and
    • 2 are still active.

Likewise, our review of cases involving former NHTSA employees who now work
for automakers also showed no evidence of external undue pressure or influence on
NHTSA’s ODI staff. We identified 40 employees who left NHTSA for the industry
over the last 26 years (15 of them left in the last 10 years). The majority of those
employees now work for automakers or law firms that represent the auto industry,
including Toyota, Honda, Nissan, and Volkswagen.                We then reviewed
46 investigation cases where 6 of those 40 former NHTSA employees had either held
high-level positions 6 or directly participated in the cases involving these
4 automakers.

In 6 of the 46 cases, we found that the former NHTSA employees were involved in
the investigation through either correspondence or meetings with NHTSA officials.
However, there was no evidence that these former employees influenced NHTSA
ODI staff decisions on whether to upgrade or close those cases. As with the cases of
former industry employees now working for NHTSA, we also found no statistical
differences in the disposition of these cases. Specifically, we found that for the
46 cases we reviewed, either the automakers or NHTSA took the following actions:

    • 24 cases ended in recalls or with the manufacturers taking some form of action,
      such as issuing technical service bulletins.
    • 14 cases were upgraded for further review before being closed.
    • 7 cases were closed after an initial review of documentation, such as the results of
      ODI’s inspections or tests of the vehicles in question that found no safety defect.

For the remaining case, NHTSA could not find documentation to explain why it
denied a petition involving sudden acceleration in 1984 Hondas. The case opened in
1987 before NHTSA’s implementation of Artemis, and NHTSA did not transfer the
case investigation information into the system.

We also interviewed 18 current ODI employees with a range of specialties and
backgrounds to determine if they had any concerns regarding undue pressure or
influence from former employers or former NHTSA employees. In separate
interviews with each of these employees, we asked them about their interactions with
former employers, their experiences with internal and external parties, any barriers
they encountered in conducting their investigations, and their observations about
NHTSA overall safety culture. None could recount any instances of internal or


6
    Those positions included Deputy Administrator, Chief Counsel, Associate Administrator for Enforcement, and
    investigators in the Office of Defects Investigation.

CC-2010-034
                                                                                                                               4

external undue pressure or influence that swayed their decision on whether to pursue a
safety defect issue.

NHTSA Complied With OGE Ethics Rules
For the 23 employees who joined NHTSA from the auto industry over the last
11 years, we found that 15 of them received the required ethics training during their
first 2 years of NHTSA employment. OGE requires agencies to retain ethics records
for only 6 years after training is completed. 7 Therefore, we could not verify annual
ethics training for the remaining eight employees as their training records were no
longer available for review. For the same 23 employees, NHTSA’s review of their
financial disclosure reports—which require disclosure of assets, liabilities, outside
positions, agreements or arrangements such as pensions, and gifts or travel
reimbursements—revealed no conflicts of interest. Our independent assessment
showed that NHTSA reviewed financial disclosures appropriately.

In addition, NHTSA generally followed the 1-year “cooling-off” period provision
when hiring former industry employees to serve within ODI. 8 Specifically, our
review of the 23 former auto industry employees found that 21 had not worked on
cases involving their former employer during their 1-year cooling off period. We did
find, however, that two employees had worked on cases involving their former
employers during their cooling off periods, one in 1999 and the other in 2003 (cases
did not involve Toyota). NHTSA’s current ethics official, whom NHTSA hired in
June 2003, had no knowledge of how or why the two employees were assigned to the
cases. Since June 2003, NHTSA has hired 14 former auto industry employees, and
we found no evidence of violations of the cooling-off period for these employees.

We also found that former NHTSA employees received the OGE ethics training, as
required, and post-employment counseling. 9 In the last 26 years (from 1984 to 2010),
40 employees have left NHTSA for work in the auto industry or related fields. Out of
the 40, we reviewed 15 who left NHTSA between April 2000 and March 2010. We
found that 10 of the 15 received annual ethics training during their last 2 years of
employment with NHTSA and post-employment counseling when they left.

However, we could not verify required ethics training and post-employment
counseling for the remaining five employees because, in keeping with the OGE’s
6-year record retention requirement, NHTSA no longer maintained their records. 10

7
   Governmentwide System of Records OGE/GOVT-1, “Executive Branch Personnel Public Financial Disclosure Reports
   and Other Name-Retrieved Ethics Program Records.”
8
    Pursuant to the Standards of Ethical Conduct for Employees of the Executive Branch issued by OGE, unless authorized
    by an agency ethics official, Federal employees are subject to a 1-year cooling off period in connection with particular
    matters involving specific parties that could have a direct and predictable effect on the financial interests of “[a]ny person
    for whom the employee has, within the last year, served as officer, director, trustee, general partner, agent, attorney,
    consultant, contractor or employee” where a reasonable person with knowledge of the relevant facts would be likely to
    question the employee's impartiality in the matter (5 C.F.R. § 2635.502(b)(1)(iv)).
9
    It is not mandatory under OGE’s ethics rules that employees leaving government service receive post-employment
    counseling.
10
    This included the records for one key individual involved in the Toyota safety defect investigations.

CC-2010-034
                                                                                                                           5

NHTSA’s Ethics Policies and Procedures Are Similar to Those of Other
Department Operating Administrations
We found that NHTSA’s ethics policies and procedures are similar to those of other
Operating Administrations within the Department of Transportation. OGE sets the
standards of ethical conduct for employees within the Executive Branch, and the
Department’s Operating Administrations must follow these standards at a minimum.
We compared NHTSA’s ethics policies and procedures for employee ethics training,
financial disclosure reporting, cooling-off period requirements, and post-employment
counseling to four other Operating Administrations with safety oversight and
enforcement programs. Out of the five agencies, four followed similar policies and
procedures; the Federal Aviation Administration is an exception since its cooling-off
period policies are even more stringent than the other Operating Administrations. 11

Regarding post-employment counseling policies, all five Operating Administrations
followed similar policies. Generally, counseling involves explaining to the employee
various restrictions when seeking post-employment. These restrictions, which include
criminal penalties, prohibit former Executive Branch employees from “switching
sides” on matters such as safety investigations after leaving Federal employment. The
post-employment restrictions also include cooling-off periods for highly compensated
Federal employees (see enclosure 3 for further details).

Based on our findings, we are not making any recommendations regarding NHTSA’s
ethics policies, procedures, and practices at this time. We continue to review
NHTSA’s processes for investigating industry-wide complaints of sudden unintended
acceleration and brake failure. We expect to report on our results later this year.
Thank you again for your attention to this important issue. If you have any questions
regarding this review, please contact me at (202) 366-1959 or Joseph W. Comé,
Assistant Inspector General for Highway and Transit Audits, at (202) 366-5630.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosure (3)

cc: NHTSA Administrator



11
     FAA's Flight Standards Service has implemented a policy that contains a 2-year period for newly employed aviation
     safety inspectors, while the other Operating Administrations have a 1-year period, as required by OGE regulations. The
     Flight Standards Service policy prohibits inspectors from having certificate management responsibilities for their former
     aviation employer, such as airlines.

CC-2010-034
                                                                                      Enclosur e 1
                                                                                      Page 1 of 3



    Listing of the Number, by Position, of Former Auto Industry
 Employees Now Working for NHTSA and Former NHTSA Employees
                 Now Working for the Auto Industry
                                          Employees   Employees
                                          to NHTSA       From
                                             From     NHTSA to
            Office/Position                Industry    Industry         Office Description*
Office of Defects Investigation
 Safety Defects Engineer                          7           1   Provides the
 Supervisory General Engineer                     0           1   testing,
 Supervisory Safety Defects Specialist            1           0   inspection, and
                                                                  investigation
 Supervisory Safety Defects Engineer              1           0   necessary for
 General Engineer                                 2           0   correction and
 Safety Standards Engineer                        0           1   identification of
                                                                  safety defects.
 Director                                         0           1
 Safety Defects Specialist                        1           0
 Safety Recall Specialist                         1           0
 Safety Defects Analyst                           1           0
 Consumer Safety Officer                          1           0
Subtotal                                         15           4
Office of Vehicle Safety and Compliance
 General Engineer                                 7           2   Provides the
 Director                                         1           1   testing,
                                                                  inspection, and
 Safety Compliance Engineer                       0           1
                                                                  investigation
                                                                  necessary to
                                                                  ensure
                                                                  compliance by
                                                                  foreign and
                                                                  domestic
Subtotal                                          8           4   manufacturers.

Office of the Administrator
 Administrator                                    0           4   Represents
                                                                  DOT and
 Deputy Administrator                             0           2
                                                                  advises the
 Executive Director                               0           2   Secretary on all
                                                                  matters related
                                                                  to motor
                                                                  vehicle
                                                                  functions with
                                                                  respect to
                                                                  drivers and
Subtotal                                          0           8   vehicles.




CC-2010-034
                                                                                Enclosur e 1
                                                                                Page 2 of 3

                                        Employees   Employees
                                        to NHTSA       From
                                           From     NHTSA to
            Office/Position              Industry    Industry        Office Description*
Office of Research and Development
                                                                Develops, recommends, and
 Associate Administrator                        0           3   conducts applied and advanced
                                                                research and test programs
 Policy Advisor                                 0           1   related to vehicle safety, crash
                                                                avoidance, and related
Subtotal                                        0           4   technologies.

Office of Chief Counsel
 Trial Attorney                                 0           1   Provides legal services and
                                                                representation relating to all
 Chief Counsel                                  0           2   aspects of program activities,
 Attorney Advisor                               0           1   including liaison and assistance
Subtotal                                        0           4   to the General Counsel.
Office of Public Affairs
 Supervisor of Public Affairs                   0           1   Serves as contact point for
                                                                news media inquiries.
 Director of Office of Public Affairs           0           1
 Director of External Affairs                   0           1
 Director of Government Affairs                 0           1
Subtotal                                        0           4
Traffic Safety Programs

                                                                Plans and develops traffic safety
 Associate Administrator                        0           2   and injury prevention and control
                                                                programs for improving public
                                                                health and safety.
Subtotal                                        0           2
Office of Applied Safety Research

 Director                                       0           1
Subtotal                                        0           1
Office of Crash Avoidance Standards
 Director                                       0           1
Subtotal                                        0           1
Office of Enforcement
 Associate Administrator                        0           1
Subtotal                                        0           1
Office of Crashworthiness

 Office Director                                0           1
Subtotal                                        0           1
Rulemaking

 Supervisor                                     0           1




CC-2010-034
                                                                                             Enclosur e 1
                                                                                             Page 3 of 3

                                             Employees       Employees
                                             to NHTSA           From
                                                From         NHTSA to
            Office/Position                   Industry        Industry             Office Description*
Subtotal                                                 0               1
Safety Performance Standards

 Associate Administrator                                 0               1
Subtotal                                                 0               1
Vehicle Research and Test Center

 Research Engineer                                       0               1
Subtotal                                                 0               1
Heavy Vehicle Research

 Director                                                0               1
Subtotal                                                 0               1
National Driver Register
 Program Manager                                         0               1
Subtotal                                                 0               1
National Center of Statistics and Analysis
 Supervisory Program Analyst                             0               1
Subtotal                                                 0               1
Total                                                  23              40
*Office descriptions were provided only for those offices with a total of two or more gains or losses.




CC-2010-034
                                                                                                         Enclosur e 2
                                                                                                         Page 1 of 2

                                         Scope and Methodology
We conducted this audit between February 2010 and February 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.

We reviewed NHTSA policies and procedures for each phase in the safety defect
investigation process. We also met with key NHTSA officials responsible for processing,
reviewing, and evaluating the ODI safety defect cases. We reviewed and analyzed
Artemis data in support of the review. We also met with Safety Research Strategies, an
industry association that specializes in motor vehicle safety matters, to obtain its views of
ODI’s safety defect investigation process.

To determine whether there was any undue pressure or influence between NHTSA and
industry, we reviewed all 19 cases conducted by 6 current NHTSA employees.
Specifically, we reviewed only cases where the six employees worked investigations of
their former auto industry employer. For each case, we reviewed all documentation
available in Artemis. We also reviewed the investigators’ records to assess how the cases
were resolved, whether there was any evidence that the former employer influenced the
six employees in their decisions to upgrade or close the cases, or whether investigators
showed any bias or favoritism toward their former employer. We compared these
19 cases to an OIG statistical sample of 60 of 297 cases to determine whether there were
significant differences between how former auto industry employees disposed of cases
involving their former employers versus other NHTSA investigators who had no
employment relationships with the industry. In addition, we randomly selected and
reviewed 46 of 59 cases based on 4 auto manufacturers that currently employ or are
represented by 6 former NHTSA employees (3 former high level officials now working
for law firms representing either Honda or Nissan and 3 former ODI investigators now
working for either Toyota or Volkswagen). For each case, we looked at all
documentation in the defect investigation management database system to determine
whether former employers influenced their former employees’ decisions to upgrade or
close a case or whether investigators showed any bias or favoritism toward their former
NHTSA colleagues.

In addition to our review of case documentation, we interviewed 18 current ODI
employees representing all 7 divisions to solicit any concerns they had regarding undue
pressure or influence. 1 Our interviews focused on employees’ interactions with former
employers, employees’ experience with internal and external pressures, barriers

1
    (1) Correspondence Research Division, (2) Defects Assessment Division, (3) Early Warning Division, (4) Medium and Heavy
    Duty Vehicle Division, (5) Recall Management Division, (6) Vehicle Control Division, and (7) Vehicle Integrity Division.


CC-2010-034
                                                                            Enclosur e 2
                                                                            Page 2 of 2

employees encountered in pursuit of agency goals, and the overall safety culture of
NHTSA. Included among the 18 were all available ODI employees from all 7 ODI
Divisions, who were formerly employed by industry, as well as employees who had
worked on cases involving auto industry companies where former NHTSA employees are
now employed. Of the 18 employees interviewed, 10 had worked on cases involving a
former auto industry employer, although only 1 interacted with former auto industry
co-workers as part of an investigation.

To determine whether NHTSA complied with OGE rules, policies, and procedures, we
reviewed all pertinent statutes and OGE regulations relating to Federal employer and
employee ethics training and other responsibilities, as well as NHTSA’s internal ethics
policies. We also reviewed OGE’s July 2010 review of NHTSA’s ethics program,
specifically as it relates to compliance with financial disclosure reporting requirements.
We examined NHTSA’s ethics policies in comparison to DOT’s other Operating
Administrations with safety oversight and enforcement programs. We also examined all
available records on OGE’s ethics training requirement and NHTSA’s post-employment
counseling policy.

Our assessment of NHTSA's compliance with OGE rules, policies, and procedures also
examined the actions of NHTSA’s current and former employees who had prior industry
connections. We reviewed the files for the 23 former auto industry employees NHTSA
hired between July 1998 and March 2010. We examined their annual ethics training and
cooling-off period requirements, as well as their OGE 450 confidential financial
disclosures. To determine whether NHTSA complied with OGE rules, policies, and
procedures, as well as its own post-employment counseling policy, we reviewed the
documentation for all 15 former NTHSA employees that left NTHSA between April
2000 and March 2010.




CC-2010-034
                                                                                                                   Enclosur e 3
                                                                                                                   Page 1 of 2

                               Federal Post-Employment Prohibitions
Post-Employment Criminal Penalties. The primary post-employment statute that applies
to former Federal employees is 18 U.S.C. § 207, “Restrictions on Former Officers,
Employees, and Elected Officials of the Executive and Legislative Branches.” This
statute generally prevents former Executive Branch employees from making appearances
before and communicating with the Federal Government on particular matters on which
they worked as Federal employees. The relevant post-employment restrictions in this
review include the following.

    • Lifetime Ban (18 U.S.C. § 207(a)(1)) – An Executive Branch employee is
      permanently prohibited after leaving his Federal position from knowingly making,
      with the intent to influence, any communication to or appearance before any Federal
      employee or agency on behalf of any other person in connection with a particular
      matter:

(A)        In which the United States is party or has a direct and substantial interest,
(B)        In which the person participated personally and substantially as a Federal officer
           or employee, and
(C)        Which involved a specific party or specific parties at the time of such
           participation.

    • 2-Year Ban (18 U.S.C. § 207(a)(2)) – An Executive Branch employee is prohibited
      for 2 years after leaving his Federal position from knowingly making, with the intent
      to influence, any communication to or appearance before any Federal employee or
      agency on behalf of any other person in connection with a particular matter:

(A)        In which the United States is party or has a direct and substantial interest,
(B)        Which such person knows or reasonably should know was actually pending under
           his or her official responsibility 1 as a Federal officer or employee within a period
           of 1 year before the termination of his or her service with the United States, and
(C)        Which involved a specific party or specific parties at the time it was so pending.

    • 1-Year Ban (18 U.S.C. § 207(c)) – In addition to the restrictions cited above, a “senior
      employee” 2 of the Executive Branch is prohibited for 1 year after ending his
      employment from knowingly making, with the intent to influence, any
1
    For the purposes of 18 U.S.C. § 207, the term “official responsibility” means the direct administrative or operating authority,
    whether intermediate or final, and either exercisable alone or with others, and either personally or through subordinates, to
    approve, disapprove, or otherwise direct Government action.
2
    A senior official includes executive level officials and any individual who is paid at a rate of basic pay equal to or greater than
    86.5 percent of the rate for Level II of the Executive Schedule, which is $155,441, as of January 2011. Therefore, SES
    officials whose pay is at least $155,441 and senior level or other employees whose basic pay is at least $155,441, excluding
    locality pay, are senior employees, and are covered by this 1-year restriction (18 U.S.C. § 207(c)).


CC-2010-034
                                                                                                               Enclosur e 3
                                                                                                               Page 2 of 2

      communication or appearance before any office or employee of his former agency on
      behalf of any other person in connection with any matter on which the person seeks
      official action.

We also note that FAA, which has post-employment policies similar to those of all other
Operating Administrations (outlined above), has taken steps to strengthen
post-employment restrictions on FAA Flight Standards Service aviation safety inspectors
(ASI). On November 20, 2009, FAA issued a Notice of Proposed Rulemaking proposing
a prohibition on certificate holders hiring or contracting with former ASIs (or their
managers) under certain circumstances. 3 Certificate holders include Part 121 4 and Part
135 5 air carriers, repair stations, flight schools, and other entities. Indirectly, this
regulation acts as a post-employment restriction on former ASIs and their managers.
FAA’s proposed rule is in response to a recommendation in our 2008 report 6 that FAA
implement post-employment guidance that includes a cooling-off period (e.g., 2 years)
that prohibits an FAA inspector hired at an air carrier he or she previously inspected from
acting in any type of liaison capacity between FAA and the carrier.




3
    This rulemaking would prohibit a certificate holder from employing or contracting with an ASI or other person with certificate
    holder oversight responsibilities to act as an agent or to represent that certificate holder in any matter before the FAA. This
    restriction would apply if the person, in the preceding 2-year period has (a) served as, or was responsible for oversight of, a
    Flight Standards Service ASI and (b) had the responsibility to inspect, or oversee the inspection of, the operations of the
    certificate holder.
4
    14 C.F.R. Part 121, Operating Requirements: Domestic, Flag, and Supplemental Operations.
5
    14 C.F.R. Part 135, On-Demand, Operating Requirements: Commuter and On Demand Operations and Rules Governing
    Persons On Board Such Aircraft.
6
    OIG Report Number AV-2008-057, “Review of FAA’s Safety Oversight and Use of Regulatory Partnership Programs,”
    June 30, 2008. OIG reports are available on our website: www.oig.dot.gov.


CC-2010-034
